CERTIFICATE OF COMPLIANCE
Case No. 20-685
Caption: Eiden, et al. v. Sierra Club, et al.
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 6,301 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 19, 2021.

Sworn to before me on
July 19, 2021
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366

